                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 1-12-05-0027                                                                      Page 1 of 1



         This matter originated from a proactive review of Scholarships in Science, Technology,
         Engineering, and Math (S-STEM) awards to community colleges. Upon review of initial
                                                                                        2
         documentation received from one of the institutions 1 receiving S-STEM awards, it appeared that
         approximately 51% of the scholarships awarded were to students who did not meet the eligibility
         requirements for the scholarships.

         Subsequent investigation, which included conducting a site-visit to the institution, interviewing
         relevant program and financial administrators, and reviewing student scholarship files, revealed
         that all of the students that received the NSF-funded scholarships were, in fact, eligible to receive
         them. We recommended to the college that it improve the administration of its student
         scholarship files.

         Accordingly, this investigation is closed.




         2




NSF OIG Form 2 (11102)
